<html>
<title> - THEODORE ROOSEVELT GENIUS PRIZE: INNOVATIVE SOLUTIONS TO REDUCE HUMAN- PREDATOR CONFLICT</title>
<body><pre>[Senate Hearing 116-54]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-54

                    THEODORE ROOSEVELT GENIUS PRIZE:
                     INNOVATIVE SOLUTIONS TO REDUCE
                        HUMAN-PREDATOR CONFLICT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
               
               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-491 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8a8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a>                   
                  
           
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 24, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    48

                               WITNESSES

Hovinga, Brad S., Jackson Regional Wildlife Supervisor, Wyoming 
  Game and Fish Department.......................................     3
    Prepared statement...........................................     5
    Responses to additional questions from:
        Senator Carper...........................................    16
        Senator Whitehouse.......................................    17
Galante, Forrest, Wildlife Biologist and Host, Animal Planet.....    20
    Prepared statement...........................................    22
    Responses to additional questions from Senator Carper........    26
Whitney, Nick, Senior Scientist and Chair, Fisheries Science and 
  Emerging Technologies Program, Anderson Cabot Center for Ocean 
  Life, New England Aquarium.....................................    27
    Prepared statement...........................................    29
    Responses to additional questions from:
        Senator Carper...........................................    41
        Senator Whitehouse.......................................    42

 
 THEODORE ROOSEVELT GENIUS PRIZE: INNOVATIVE SOLUTIONS TO REDUCE HUMAN-
                           PREDATOR CONFLICT

                              ----------                              


                        WEDNESDAY, JULY 24, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Braun, Rounds, Ernst, 
Cardin, and Markey.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Earlier this year, Republicans and Democrats on this 
Committee joined together to enact a bill called the WILD Act; 
it is the Wildlife Innovation and Longevity Driver Act. These 
really smart people behind us come up with these acronyms, and 
it usually works; the WILD Act. The law supports innovative 
efforts to conserve wildlife, to manage invasive species, and 
to protect some of the world's rarest and most beloved animals.
    The WILD Act established the Theodore Roosevelt Genius 
Prize to encourage technological innovation. These prizes 
annually award $100,000 to innovators who help solve our 
Nation's most difficult wildlife and invasive species 
challenges. The prizes were inspired by cutting edge 
conservation innovations that are already in use, such as the 
DNA analysis to identify the origin of illicit ivory supplies, 
thermal imaging to notify authorities of poachers, and a fish 
passage that automatically extracts invasive fish from systems.
    So today, we will consider S. 2194, the Promoting 
Resourceful and Effective Deterrents Against Threats or Risks 
Involving Species. And you say, how do you come up with a name 
like that? Well, it is also called the PREDATORS Act; you take 
the first letter of each of those words.
    The PREDATORS Act is a bill to establish a sixth Theodore 
Roosevelt Genius Prize, which I have introduced along with 
Senators Carper and Cramer and Booker. The bill would 
incentivize the development of non-lethal, innovative 
technologies that reduce conflict between human and wildlife 
predators. Although rare, human encounters with predators can 
lead to injury, and as we know, even death.
    In Wyoming, the species most closely associated with this 
problem is the grizzly bear. Just last year, a hunting guide 
from Jackson Hole was tragically killed by grizzlies. The two 
grizzlies responsible for the attack were euthanized. And it is 
not just hunters that are at risk. In northwest Wyoming--
Wapiti, Wyoming--the elementary school near Cody had to build 
an 8 foot high heavy gauge metal fence around its school yard 
to protect its students. You can see the image here; ``Please 
close the gate for the safety of people and animals at Wapiti 
School.''
    Wyoming is not alone. It is not alone when it comes to 
grappling with human-predator conflicts. Fatalities occur each 
year from sharks. In 2018, there were 66 shark attacks, 
including 32 in the United States. A little over a week ago, a 
young girl boogie boarding in Florida suffered shark bites to 
her foot and ankle. Comparatively, she was lucky. In North 
Carolina, a girl lost a leg and two fingers while swimming this 
summer. An American woman was killed by shark in the Bahamas 
around the same time.
    Bears and sharks are not the only predator species of 
concern. In Colorado, a runner's encounter with a mountain lion 
on a trail left him injured and the animal dead. Tragically, in 
Florida, a young child was killed at Disney World by an 
alligator.
    Our distinguished panel is going to help us to examine how 
the establishment of a new Theodore Roosevelt Genius Prize can 
incentivize technological innovation to reduce future human-
predator contact. Our witnesses include Brad Hovinga, who is 
the Jackson Regional Wildlife Supervisor at the Wyoming Game 
and Fish Department. I am going to formally introduce him 
shortly.
    Forrest Galante, a biologist, wildlife tracker, and Host on 
Animal Planet, of Extinct or Alive, and we are thrilled to have 
you here joining us.
    And Dr. Nick Whitney, who is a Senior Scientist for the 
Anderson Cabot Center for Ocean Life at the New England 
Aquarium, which is in Boston.
    I look forward to hearing from our witnesses about their 
experiences with human-predator conflicts and how innovative 
technologies can help reduce them.
    At this point, I would normally turn to Senator Carper. He 
has several different committee meetings today. He is going to 
be here shortly. And as I mentioned to Brad, we have a series 
of three votes starting at 11 o'clock. So we are going to have 
a lot of Senators attending. Some are going to be coming and 
going. You are going to have a lot of attention to this, 
because it is a topic of significant interest. As you see 
members coming and going, realize that they are going to 
different votes and different things. We are going to continue 
to keep the hearing going.
    Before we hear from all of our three witnesses, I do want 
to welcome Brad Hovinga here, who has served as the Jackson 
Regional Wildlife Supervisor for the Wyoming Game and Fish 
Department during the last 4 years. He has worked with Wyoming 
Game and Fish since his graduation from Utah State University, 
where he was awarded a bachelor's degree in wildlife 
management. He has served over two decades as a district game 
warden in Big Piney, Wyoming, and in Lander, Wyoming, and in 
2014, was named Officer of the Year for Wyoming from the Shikar 
Safari Club International.
    In recent years, I have had the privilege of talking to him 
on different occasions about conservation issues affecting 
Wyoming. I think we have done it at the Elk Antler, the Boy 
Scout event that they have every year in Jackson Hole.
    This Committee is certainly going to benefit from hearing 
about your vast experience in resolving predator-human 
conflicts in Wyoming.
    Mr. Hovinga, we appreciate your being here. It is a 
privilege to welcome you as a witness before the Environment 
and Public Works Committee. Thank you for traveling to 
Washington, and we would like to now hear from you.

    STATEMENT OF BRAD S. HOVINGA, JACKSON REGIONAL WILDLIFE 
          SUPERVISOR, WYOMING GAME AND FISH DEPARTMENT

    Mr. Hovinga. Thank you, and good morning, Chairman 
Barrasso, members of the committee.
    My name is Brad Hovinga; I am the Jackson Regional Wildlife 
Supervisor for the Wyoming Game and Fish Department. I 
appreciate the opportunity to be here today to provide my 
perspectives on technologies and practices of reducing human-
wildlife conflicts. My testimony is based on 27+ years' 
experience as a game warden and a regional supervisor 
investigating these types of conflicts in Wyoming.
    Today, I intend to highlight some of the important 
innovations and technologies currently employed by western 
wildlife management agencies to reduce human-wildlife 
conflicts, as well as present some ideas that have potential 
application for the future. Wyoming is home to a tremendous 
wildlife resource that is valued by a constituency that is 
passionate about their wildlife.
    Human-wildlife interactions in Wyoming are typically the 
result of animals seeking unnatural foods in association with 
property or people, close encounters with humans, damage to 
property, or large carnivores that depredate livestock. The 
Wyoming Game and Fish Department makes a significant investment 
in wildlife-human attack response training and has its own 
response team to investigate and expertly deal with situations 
involving human injury or death caused by wildlife. Wyoming 
also puts forth a considerable educational effort, through our 
Bear Wise program, that seeks to minimize human-bear conflicts.
    Wildlife agencies use a variety of innovative, non-lethal 
technologies to aid in reducing conflicts. These technologies 
include the use of chalk and pepper balls, weapon fired 
beanbags, a variety of pyrotechnics, and unmanned aerial 
vehicles, or UAVs. Wyoming recently trained personnel in the 
use of conducted electrical weapons, commonly known as tasers, 
for use as an aversion tool for wildlife. Colorado and Alaska 
have seen positive results with these devices with wildlife 
conflicts in those situations.
    Many of the non-lethal technologies used today to reduce 
and prevent human-wildlife conflict have limitations that could 
be potentially be improved to increase their effectiveness. The 
technologies that I will discuss now either currently are in 
use and have the potential of being improved, or new 
technologies that I envision having a fundamental impact on the 
future of reducing human-wildlife conflicts.
    Bear spray is frequently a primary tool used in close 
quarters human-bear conflict situations and often does an 
excellent job in deterring animals in close contact situations, 
when used correctly. However, in extreme weather conditions, 
range and effectiveness of the spray can become limited and 
have an adverse effect on the individual deploying the bear 
spray.
    Conducted electrical devices are quickly becoming a 
valuable tool for wildlife managers as an aversive conditioning 
technique, as well as a temporary immobilization tool on 
animals like urban deer. However, in order for effective use on 
large animals, such as grizzly bears and moose, the current 
technology is lacking options for long range deployment that 
would increase opportunities to use the technology and improve 
human safety.
    Improvements in unmanned aerial vehicles, or drone 
technology, that allow for the deployment of aversive 
conditioning tools would greatly improve our ability to keep 
people safe and influence the behavior of habituated or 
aggressive wildlife. Developments in FLIR and thermal camera 
technology for the use with UAVs would significantly increase 
human safety when assessing dangerous situations.
    Last, long range acoustic sound devices, or sound cannons, 
are devices that directionally deliver sound over long 
distances. The potential for development of long range acoustic 
deterrents for wildlife management exists. Work to develop an 
appropriate aversive conditioning tool for addressing wildlife 
conflicts would be greatly beneficial.
    The citizens of the United States have a deep and sincere 
appreciation for wildlife resources, and expect wildlife 
managers to understand and improve upon past and current 
technologies to reduce human-wildlife conflicts. Investigating 
ways to minimize the pitfalls and reduce the inadequacies of 
current technology and techniques is a great place for us to 
focus our work.
    The wildlife populations continue to expand into human 
dominated landscapes in Wyoming and throughout the West. Human 
development continues to encroach on wildlife habitat. 
Development of new, innovative solutions that carry greater 
effectiveness at reducing conflicts between humans and wildlife 
is paramount to the co-existence of people and wildlife.
    I thank you for the opportunity to share my perspectives 
and those of the Wyoming Game and Fish Department on reducing 
human-wildlife conflicts. I look forward to answering your 
questions.
    [The prepared statement of Mr. Hovinga follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so very much for your 
testimony.
    Now I would like to turn to Mr. Forrest Galante, who is the 
host on Animal Planet of Extinct or Alive.
    Welcome to the Committee.

                 STATEMENT OF FORREST GALANTE, 
           WILDLIFE BIOLOGIST AND HOST, ANIMAL PLANET

    Mr. Galante. Thank you very much, Chairman Barrasso, 
Ranking Member Carper, and members of the Committee. Thank you 
for the opportunity to be here today.
    I am a wildlife biologist and animal tracker. For as long 
as I remember, I have looked for wildlife to experience seeing 
them in their natural habitat. I grew up on a farm in Zimbabwe. 
The land was home to flowers, fruits, livestock, and wild 
animals.
    As a boy, I enjoyed catching snakes, fishing in the dam, 
and exploring the remote African bush with my mother, one of 
Africa's first female safari guides and bush pilots. I was 
enthralled by all wildlife. I learned their behavior, how they 
survive and thrive, and what threatens them in their existence. 
From a young age, I knew I would pursue a career in wildlife.
    I am honored to be here today to offer my perspective on 
human-predator conflict, and how traditional and innovative 
techniques can be used to reduce conflicts and benefit humans, 
wildlife, communities, and habitats. I applaud the Committee's 
leadership role in establishing the five Theodore Roosevelt 
Genius Prizes. Now signed into law, this legislation encourages 
innovation to address growing challenges in protecting 
wildlife.
    I also applaud the Committee for introducing new 
legislation, the PREDATORS Act, to add a new award to 
incentivize solutions to reduce human-predator conflict. 
Growing up in Africa, the conflict between predator and human 
is a daily struggle that I witnessed first hand, from leopards 
stealing livestock to people actually being preyed upon by 
species like crocodiles, lions, and more.
    Unfortunately, in the long term, the predator almost always 
loses, as eradication has typically been the method of 
resolution. However, innovative methods of predator deterrents 
have begun to arise. These deterrents could easily become the 
new standard. They will not only resolve the issue, but support 
local economies by keeping the valuable apex predators in the 
system, which not only helps the biome, but supports 
ecotourism.
    Many of these methods are still in development and have 
typically been crudely implemented by scientists like myself 
attempting to resolve a problem with little resources. I want 
to emphasize that an understanding of animal behavior and the 
ecology of a species is essential to developing successful 
deterrents.
    The following is a list of non-lethal deterrents. 
Animatronic deterrents. In Malawi, there was an infamous hyena 
that used to raid village flocks. An engineer friend of mine 
came up with a fascinating animatronic decoy. Because hyenas 
fear large animals and men, he built a large motion activated 
animatronic scarecrow to place at the entry points of the 
village. With solar panels to power them, they will scare away 
hyenas that come near. This is a permanent fix that requires a 
bit of engineering to be sustainably successful.
    Alarm systems. There are really two types, foreign and 
organic. A foreign alarm is a sound or light not recognized and 
startling to an animal; an organic one is using something the 
animal is naturally deterred by, such as a competitor's growl. 
Setting these up by motion activation has proven successful for 
foxes, coyotes, leopards, and more.
    Olfactory deterrents. Like organic alarm systems, an 
organic smell can oftentimes be enough to deter a predator. For 
instance, if you have a persistent problem with a coyote, 
spraying wolf urine around the perimeter can deter the coyotes 
from entering the area.
    Commensalistic deterrents. In many cases, using an animal 
to deter another animal has no negative effects. This is simply 
the sheep dog approach. Living in Africa, we would see that 
trained packs of Rhodesian Ridgeback dogs were a fantastic 
permanent solution to deterring lions. They stay close to home, 
create an alarm system, and will easily run off a lion that is 
trying to sneak in for a free meal.
    Barrier methods. In many places around the world, fresh 
water is the reason for predator-prey interactions. Using 
barriers to create safe swimming and washing areas in river 
systems can eliminate attacks by crocodiles, hippos, and other 
animals.
    The list goes on, but the key element here is fully 
understanding the predator which we are trying to deter. The 
point is true for predators in any habitat.
    There are several new pieces of technology that, once 
properly understood and implemented, will be the new standard. 
Before wrapping up, I would like to share a few quick examples.
    The HECS technology is a passive technology that blocks the 
body's naturally occurring electric energy. Basically, by 
wearing a wetsuit that has the technology of a Faraday cage--
the same thing that is in the door of your microwave oven at 
home--it blocks the body's naturally occurring energy signal. 
To a shark, you are now perceived as an inanimate object.
    The shark shield is a lightweight, wearable electronic 
device. The patented technology creates a powerful three-
dimensional electrical field which causes unbearable spasms in 
the sharks' sensitive EMR receptors, turning sharks away as 
soon as they come into contact with the electrical field.
    The clever buoy is an ocean monitoring platform that 
specializes in detecting large marine life using sonar and 
identification software systems to relay critical information 
to authorities responsible for beach safety.
    Once technology like the clever buoy system is perfected, 
implemented, and combined with something like the shark shield, 
you have a virtual net that can make a beach safe for any 
swimmers, which is just amazing, in my opinion.
    Thank you again for inviting me to be a part of today's 
hearing. I look forward to answering any questions that you may 
have.
    [The prepared statement of Mr. Galante follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so very much.
    And now, Dr. Whitney.

    STATEMENT OF NICK WHITNEY, SENIOR SCIENTIST AND CHAIR, 
 FISHERIES SCIENCE AND EMERGING TECHNOLOGIES PROGRAM, ANDERSON 
       CABOT CENTER FOR OCEAN LIFE, NEW ENGLAND AQUARIUM

    Mr. Whitney. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee, for inviting me to 
testify today on the topic of human-predator conflict as it 
relates to sharks.
    I am a senior scientist and shark researcher at the 
Anderson Cabot Center for Ocean Life in the New England 
Aquarium. The New England Aquarium is a catalyst for global 
change through public engagement, innovative scientific 
research, and leadership in education and ocean advocacy. Our 
mission is to conduct research on topics related to ocean 
health and conservation and develop science based solutions to 
marine conservation problems.
    I personally have studied sharks for over 20 years, and 
have tagged over a dozen different shark species, including 
white sharks, tiger sharks, and bull sharks, the three species 
considered most dangerous to humans.
    Although I am a scientist, I am also a husband and father 
of three young kids, and my heart goes out to the victims and 
families whenever someone is bitten by a shark. While cold 
facts and statistics are useless to people who have suffered 
through these incidents, we owe it to the public to develop our 
response using the best available science.
    The truth about shark bites is that they are incredibly 
rare. Despite the millions of people that go into the ocean 
around the world each year, only 66 unprovoked shark bites were 
recorded globally in 2018, and only 5 of those bites were 
fatal.
    Despite some truly terrible incidents, most shark bites are 
noteworthy for their lack of severity considering the damage 
that we know sharks can inflict. In fact, most incidents appear 
to be cases of mistaken identity or investigatory bites in 
which a shark uses its teeth to inspect an object and then 
quickly releases once it realizes that it is not food. 
Unfortunately, even a tentative bite can cause serious injuries 
or death, depending on the size and species of the shark 
involved.
    When it comes to conflicts between humans and predators, 
humans have long had the upper hand. By any measure, we are the 
deadliest species to have ever existed. Today, we are killing 
about 100 million sharks a year in global fisheries, with 
further immeasurable impacts from habitat destruction, 
pollution, and climate change.
    This is unfortunate, because healthy shark populations are 
extremely valuable to humans. Economically, shark fisheries are 
valued at over a billion dollars annually, and shark ecotourism 
may be worth over $300 million globally.
    Ecologically, sharks represent a crucial part of the marine 
ecosystem, the health of which will determine if our planet 
remains habitable for the 9 billion or more humans expected by 
2050, many of whom are highly dependent on the oceans as their 
primary source of protein, and at risk from the threats of 
climate change.
    Despite everything we know, people's fear of sharks is 
amplified and often exploited by news media well aware that 
scary stories will attract an audience. Innocuous sightings of 
sharks swimming in the ocean are often accompanied by headlines 
suggesting vicious attacks, and reports of small, non-
threatening shark species are presented along with pictures of 
white sharks attacking seals.
    In the United States, the most recent area of media focus 
has been on the growing number of white shark sightings around 
Cape Cod, Massachusetts, where there have been five shark bites 
on humans since 2012, including a tragic fatality in 2018 that 
was the State's first shark related death in over 80 years.
    The increase of white shark presence along the Cape is 
thought to be driven largely by the growing population of grey 
seals, which are a preferred prey item for white sharks. In 
response to these increased sightings, the Massachusetts 
Division of Marine Fisheries and the Atlantic White Shark 
Conservancy have been conducting research to understand shark 
movements and inform public safety strategies.
    Starting this year, the New England Aquarium is joining the 
team to apply the latest in high tech tagging technology to 
understand these sharks' fine scale behaviors, as well as the 
nature and frequency of white shark feeding events on seals. I 
brought a few of those tags here.
    In the meantime, towns across the Cape have been working 
with the Conservancy and the Massachusetts Division of Marine 
Fisheries to raise awareness about sharks through community 
engagement and outreach. Research information is shared in a 
two-way conversation with the public through the Conservancy's 
Sharktivity smart phone app, as well as on the group's Web 
site. This implementation of cutting edge scientific research, 
in conjunction with public outreach and education programs, is 
likely the most effective way to ameliorate the impact of 
shark-human conflicts.
    Although it is tempting to reach for quick solutions to 
prevent shark bites, any new technologies claiming to be a one 
size fits all solution run the risk of giving people a false 
sense of security and should therefore be subjected to rigorous 
scientific testing before being broadly implemented. In 
addition to what is being proposed today, sustained funding for 
scientific research is the key to achieving the depth of 
knowledge required to sustainably manage our ocean resources 
and to produce effective new tools and strategies to avoid 
conflicts between humans and sharks.
    Thank you.
    [The prepared statement of Mr. Whitney follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thanks to all of you for your testimony. 
Very interesting.
    I will just start with some questions I wanted to start 
with. This past weekend, on Sunday, I was in Buffalo, Wyoming, 
where it was Longmire Days. He is a sheriff in books by Craig 
Johnson.
    There is another equally famous officer from Wyoming, 
another fictional character that C.J. Box writes about, Joe 
Pickett, who was a game warden for many years.
    You were a game warden for 20 years. Anybody that were to 
sit there and Google Joe Pickett detective series, the guy 
there in the picture looks like it could be you. The hair is a 
little darker; well, a lot darker. But it could have been you 
20 years ago.
    Having read most of the books, it shows just how dangerous 
the job is that game wardens do for them in their lives in 
terms of not just interaction with wildlife, but humans. So we 
appreciate what you do.
    I wanted to get a bit into this topic and ask some 
questions for you as well as for Forrest. Last year, the 
Associated Press reported on grizzly bear attacks, and the one 
fatal one we had in Wyoming, of an outfitter, and noted that 
conflicts between grizzly bears and humans in the Yellowstone 
region have become more common as this species has recovered 
from near extermination in the early 20th century. Although 
fatal attacks on humans are still rare, and I heard about it in 
Cody on the 4th of July, talking to folks, they have the bear 
spray canisters at the airport. There was a story in USA Today 
about bear spray not being mandatory, but it is a good idea and 
a suggestion.
    What factors are you seeing that generally account for the 
upticks in human-predator conflicts?
    I am going to ask you, Forrest, the same question.
    Mr. Hovinga. Certainly, Mr. Chairman, over the years, since 
in the last couple of decades, the grizzly bear population has 
increased and expanded in Wyoming. From 1990 until as recently 
as last year, looking at the numbers, grizzly bears have 
expanded from an area approximately the size of 23,000 
kilometers to an area of approximately 68,000 kilometers. So 
the grizzly bear population continues to expand.
    Bear densities in the greater Yellowstone area, in the 
primary conservation area have expanded out in and now occupy 
about 97 percent of the demographic monitoring area where 
grizzly bears are managed. They have continued to expand, as 
the population expands. They reach a density in those core 
areas and expand outward.
    As they expand outward, outside the DMA, the demographic 
monitoring area, they tend to expand those populations, expand 
into areas that are more human dominated landscapes. There is 
more people, more activity, more roads, more camping. And just 
generally, those bears are now coming into contact with more 
people than they ever have.
    Consequently, our conflicts that we deal with in Wyoming 
between people and bears, about one-third of those conflicts 
now occur outside the DMA. So grizzly bears have expanded into 
those human dominated landscapes and are now making more 
contacts with development and people in areas where those 
conflicts typically haven't happened before.
    Senator Barrasso. Mr. Galante.
    Mr. Galante. I think Brad summed it up perfectly, the fact 
that encroachment is the biggest issue. That is a two-way 
bridge: human populations are increasing as are the bear 
populations in Wyoming. Prevention is the best option. 
Prevention is much better than being reactive. What I mean by 
that is, if we can put some of these innovative techniques into 
play ahead of having problems, having encroachment issues, 
people going into bear habitat and bears going into people 
habitat, then we will see much more passive interactions 
between people and animals.
    Something Brad and I discussed yesterday was using negative 
reinforcement in order to do that. What I mean by that is, 
whether you are using the alarm systems that I noted, or 
shocking the bears, or whatever the situation is, to give the 
bears a negative association with human beings as opposed to a 
positive one when they are raiding trash cans and taking food.
    Senator Barrasso. And to the issue of bear spray, which we 
advocate in Wyoming, not mandatory but we suggest is a good 
idea, your agency advocates the use of bear spray as an 
effective deterrent to aggressive or charging bears. Can you 
just talk a little bit about some inadequacies of the bear 
spray, when it works, when it doesn't? How can we improve on 
that?
    Mr. Hovinga. Certainly, Mr. Chairman. First off, will say 
that we do love bear spray and promote bear spray as an agency. 
Our employees carry bear spray in the field. We encourage 
everybody recreating in areas that could be occupied by grizzly 
bears to carry bear spray.
    The one thing, when we teach bear spray education, is that 
bear spray is a great tool, most of the time, to deter animals 
during an attack or close contact situation. But one of the 
pitfalls we do see with bear spray occasionally, and it's good 
for people to be aware of, is that in adverse weather 
conditions, like strong crosswinds or headwinds, bear spray can 
have its effects limited.
    If you have a strong crosswind, it may be more difficult 
for that bear spray to actually reach the intended target, 
where normally you can get a good 30 feet worth of bear spray 
in front of you. That distance may be reduced and the 
effectiveness of how much spray reaches the animal could be 
reduced also.
    Also, consequently, if you have a headwind, you might 
imagine, as a spray, with lots of particles blowing back onto 
the user of the bear spray, the self-contamination issue is 
certainly something to be aware of with bear spray.
    So there have been new technological advances in the law 
enforcement realm, where there has been new products that deal 
with--like a pepper gel. So it is a heavier substance, that is 
less affected by the wind, less affected by heavy rain, and it 
decreases the potential for self-contamination with spray. That 
would be a great advancement for us to have with bear spray.
    Senator Barrasso. Thanks.
    Senator Braun.
    Senator Braun. Thank you.
    Interesting conversation, because I practiced conservation 
and managed a lot of land, at least I did before I got here, 
still can do it as much as I can on the weekends. But I am 
putting in perspective--Wyoming, I think has maybe close to 
four times the land mass of Indiana. We have about six times 
the population or so of Wyoming. Most of our wildlife is 
concentrated into one-third of the 20 million to 21 million 
acres we have in Indiana.
    To look at, from the Lewis and Clark days, when we had 
probably grizzlies, a whole panoply of wildlife there, and of 
those 20 million acres, I think 19 million would have been 
wooded. Ironically, we probably have more deer living on one-
third the terrain now when they were completely gone. I 
remember the only place you could go deer hunting was on a 
military base, because of subsistence farming and the land that 
had been cleared from 19 million acres down to about a million.
    So through conservation, good stewardship, we brought that 
back to 6 million to 7 million acres. Beavers are everywhere. 
Otters have been reintroduced. Both of which now have had 
trapping seasons, because they have gotten out of hand. Beavers 
are almost everywhere. It is a beautiful story.
    Believe it or not, mountain lion sightings. Because we have 
more deer than we had, and it was spread over three times the 
land area. Now it is like a buffet, where you have crops to 
boot. So I don't view this as pepper spray and being afraid of 
it, but I personally think we will have nesting, we will have 
mountain lions that are reproducing in southern Indiana.
    Bobcats, for instance, I don't think we had any on trail 
cams. Now they are pretty well universally around. In a place 
like Indiana--where you at least have got expanse in Wyoming, 
in the West--we are going to run into that conflict. Coyotes 
have prospered; there are more in Indiana now than probably 
before. I mentioned the other wildlife that has really done 
well.
    Bobcats, we recently had a hearing associated whether we 
should introduce a trapping and hunting season. Because most of 
the people in Indiana that pay for DNR and buy a license, or 
are wanting to hunt small game, so those kinds of conflicts.
    I would like to ask you, because I think there have been 
actually mountain lions passing through. I believe they are 
possibly reproducing. In a place like Indiana, where you don't 
have the expanse, where you are going to run into these 
conflicts very quickly, do you see where an apex predator like 
that could actually live side by side? I think it would be a 
beautiful thing if it could happen. But I know even many of the 
most fearless hunters would be a little bit careful if they 
knew you had a full, active breeding population of mountain 
lions in southern Indiana.
    Any of you who want to weigh in on it, I would be 
interested to hear what you think and how we would manage 
through it.
    Mr. Hovinga. Certainly, Mr. Chairman, Senator Braun. When 
you have deer populations like you described, and mountain 
lions move into the area, when there is a prey base to support 
that animal, they are certainly likely going to do well. As far 
as mountain lions go, in Wyoming, we have a lot of mountain 
lions, we have a lot of deer, we have a lot of prey base for 
those animals. And they tend to do well.
    We don't have a lot of conflicts with those animals, with 
mountain lions, outside of urban areas. Sometimes in urban 
areas, when they come in, and they typically come into urban 
areas looking for prey, which is the deer that reside in urban 
developments. That is when those conflicts arise. Typically, it 
takes on the picture of a mountain lion comes in in the middle 
of the night looking for prey, it finds prey, it suddenly gets 
light, and people come out from everywhere. And that is when 
the conflict arises.
    So certainly those are manageable situations. I do think--
to answer your question, I do think you can have, even in areas 
with a larger population base and less land, coexistence of 
mountain lions and deer in those communities.
    Senator Braun. Are there active hunting seasons on mountain 
lions and grizzlies in Wyoming and throughout the West?
    Mr. Hovinga. Mountain lions, yes, Senator. Grizzlies, no. 
Grizzlies are currently federally listed under the Endangered 
Species Act. And we coordinate our management efforts with the 
U.S. Fish and Wildlife Service on anything we do grizzly 
related. It has gone back and forth over the last few years. We 
had control last year when the hunting guide was killed in 
Wyoming; we had management authority over grizzly bears at that 
time. We had a hunting season proposed. However, the judge's 
decision put that bear back on the Endangered Species List 
before we had the opportunity.
    Senator Braun. I think we are going to have a round for 
some other questions, and I will come back, and we'll finish 
here. I have a few more. What is the harvest on mountain lions 
in a State like Wyoming through hunting? Roughly.
    Mr. Hovinga. As far as the number we harvest, I don't have 
that exact number with me. But it is in the hundreds.
    Senator Braun. In the hundreds, OK.
    Mr. Hovinga. Yes. And in our particular area, in my region, 
we will harvest in between 20 and 30 mountain lions in our 
area.
    Senator Braun. And the population is sustainable over time 
with that?
    Mr. Hovinga. Absolutely. The way we manage mountain lions 
is, we have areas that we leave as, some are source areas, that 
are designed to continually grow in population and be a source 
for other areas and manage others for stable populations. We 
have a little higher harvest in those areas.
    Senator Braun. Thank you.
    Senator Barrasso. Thank you, Senator Braun.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. I have a statement I 
want to read, but first, let me just say welcome. We also are 
in different committees, and in one of my other committees, 
Homeland Security Committee, we had what we call markup, where 
we were debating a bunch of nominations and bills. I needed to 
be two places at one time. Hard to do that. I apologize for 
missing your statements, but we are glad you are here, and we 
appreciate your responding to our questions.
    Ironically, Mr. Chairman and colleagues, my wife--I think I 
mentioned this--she is hiking the Appalachian Trail this week 
with her sister and brother-in-law in western North Carolina. I 
get a daily report on predators that are attacking them and 
preying on them. I hope she will come back in one piece next 
week.
    When I originally heard about this hearing, I said, well, I 
don't know if I have a dog in that fight. As it turns out, I 
have a wife and sister-in-law and brother-in-law. So this is 
more germane to me than I first thought.
    While we don't have a whole lot of top predators in the 
First State--Delaware is the First State--we were the First 
State to ratify the Constitution; that is why we are called the 
First State. Like a lot of Americans, Delawareans are 
fascinated by predators. In fact, a couple of years ago, one 
enterprising Delawarean mounted--if you can believe this--a 
110-pound fiberglass shark to his dune buggy in honor of a 
white shark named Hilton that was tracked off Delaware's coast 
in 2017. While that dune buggy has driven thousands of miles, 
Hilton has swum thousands more, I think from South Carolina to 
about as far north as Nova Scotia.
    But as the immense popularity of Shark Week demonstrates, 
millions of Americans are enthralled with these creatures, and 
with good reason. Predators such as bears and sharks really do 
play uniquely significant roles in their ecosystems and ours.
    These animals control the entire food chains, indirectly 
influencing everything from the spread of invasive species to 
carbon sequestration. They sustain healthy populations of 
commercially and recreationally important fish and game 
species, and even help to enhance plant diversity.
    Many predators are also important for ecotourism. However, 
as humans continue to encroach upon wildlife habitat and 
compete with predators for the same space and the same natural 
resources, our relationships with these animals can become, in 
some cases, adversarial.
    What is more, human-predator interactions are increasingly 
common, as more people recreate, like my family this week, in 
wildlife habitat. More than 300 million people visit our 
national parks each year, and our coasts are more popular than 
ever for surfing, for swimming, for boating, and for fishing.
    Human-predator interactions can impact predators and humans 
alike. Humans have a history of culling entire predator 
populations due to conflicts, which has negative effects on our 
ecosystem.
    Predators can also threaten our recreational opportunities, 
food, and economic security, and in rare but serious cases, 
cause human injury or loss of life. My wife was describing how 
they have these bear bags that the put food and stuff, 
provisions in, and hoist them up so they are up in the trees so 
bears can't get them. She had a very funny looking bear bag 
compared to the other hikers; it was sort of like a made at 
home kind of deal.
    Just last fall, two grizzly bears sadly killed a hunting 
guide in Wyoming. A short while later, a young man tragically 
lost his life after an encounter with a great white shark off 
of Cape Cod. Although such tragic outcomes are exceedingly 
rare, they do happen. As a result, we should consider how 
human-predator conflicts may evolve over time.
    As the range of some prey species shifts in response to 
climate change, some species cease to exist entirely. Predators 
may be forced to move to new areas to follow the prey, or find 
new sources of food. This begs a couple of questions. One of 
them is, what can we do to meaningfully address human-predator 
conflicts. A second question would be, how can we protect 
predators and preserve the important role they play in the 
environment, while minimizing harmful human-predator 
interactions.
    I like to say that there are no silver bullets when we are 
trying to solve a particular issue. There are no silver 
bullets, a lot of silver BBs. Some of are bigger than others. 
One approach is the legislation before us today, which will 
support innovative, non-lethal technologies to study, to 
monitor, and to manage predators.
    Mr. Chairman, I appreciate your commitment to innovation 
and technology. I am pleased to support you in this legislative 
effort. With that said, I also want to highlight the importance 
of engaging citizens productively in addressing these 
conflicts. We need to make sure that good science and data can 
be used by wildlife managers and decisionmakers when managing 
predators. The public, who care most about these animals, must 
have the opportunity, formally or informally, to collaborate 
with scientists and managers on solutions.
    Finally, Democrats on this Committee have proposed a number 
of bills to address habitat loss, wildlife conservation, and 
climate change, all of which affect predators, as we know. Many 
of these bills are bipartisan and non-controversial. I hope 
this Committee will work soon to advance some of those 
legislative solutions as well.
    Thanks again, Mr. Chairman, for holding the hearing today. 
I look forward to working with you to advance this bill. I 
again apologize for missing the first part of this hearing.
    Thank you.
    Senator Barrasso. Would you like to proceed, Senator 
Carper, with a few questions, since Senator Braun and I have 
both had a chance to ask some?
    Senator Carper. Yes, I would appreciate that. Thank you.
    I have 14 questions. Not really.
    [Laughter.]
    Senator Barrasso. They are up to it. They can handle it. 
They are good.
    Senator Carper. We will divide them up.
    The first question, this will be for all three of you, if 
you would. We already see the impacts of climate change on 
wildlife, increasing air and water temperatures, and rising sea 
levels, destroying or altering habitat as we know. Evolving 
weather and rainfall patterns impact food and water 
availability.
    In response to these changes, wildlife behaviors are also 
changing. For example, orcas are moving north into the Arctic, 
and scientists have documented the northward migration of bull 
shark nurseries. Given these impacts, how do you think climate 
change affects the increasing frequency of human-predator 
conflicts in the U.S.?
    Mr. Whitney, I am going to ask you to lead off, and I will 
ask each of you to respond. How do you think climate change 
affects the increasing frequency of human-predator conflicts in 
the U.S.?
    Mr. Whitney. Thank you for the question. Yes, as you noted, 
climate change and rising ocean temperatures do have an impact 
on several species, including sharks. Most sharks are 
ectothermic, which means they are cold blooded. Their body 
temperature is going to be at whatever level the seawater is 
that they are swimming in.
    Senator Carper. What was that term?
    Mr. Whitney. Ectothermic.
    Senator Carper. Thank you. I always say, what did you learn 
today? One thing.
    Mr. Whitney. You can say cold blooded, too.
    Senator Carper. We use that term a lot around here.
    [Laughter.]
    Mr. Whitney. So as ocean temperatures rise, the sharks' 
body temperatures will rise, and their metabolic rate will 
increase, which means they are more active, they are burning 
more calories, they need to consume more prey to replace those 
calories.
    What we typically see is sharks changing their distribution 
to stay within their preferred temperature range. They tend to 
have a range of a few degrees that they like to stay in. So as 
the area of that preferred temperature range moves north or in 
whatever direction, depending on what part of the world you are 
in, the sharks are likely to move to follow that. The same 
thing is true, most of their prey are going to cold blooded as 
well, so their prey will move to follow those temperatures.
    So in terms of what that means for shark-human conflict, it 
potentially means that you have sharks coming into areas more 
commonly where they haven't been in recent history. So people 
may be used to swimming off beaches and not seeing many sharks, 
and now, with the warmer water temperatures, you can have more 
humans in the water, because the water is warmer, for one 
thing, and they will stay in longer, but then also more shark 
species coming into those areas.
    Senator Carper. Great. That was good. Thank you.
    Mr. Galante.
    Mr. Galante. Thank you, Senator Carper. As you see species' 
ranges shift and increase, I think the biggest key is 
understanding the ecology, as Dr. Whitney pointed out. Then 
being adaptive for that. So understanding what species are 
going to shift into what new ecological niches, where they are 
going to occur, where they haven't previously, and what 
preventive methods we can take ahead of there being conflict to 
ensure that there is no issue with predators coming into that 
environment.
    As you pointed out, there is absolutely no doubt that 
predators are constantly moving, and they are going to occupy 
new ecological roles in new environments. If we are ahead of 
that game, understanding and predicting that, then we can 
mitigate conflict altogether.
    Senator Carper. All right. Very good, thank you.
    Mr. Galante. Thank you.
    Senator Carper. And Mr. Hovinga.
    Mr. Hovinga. Thank you, Ranking Member Carper.
    Climate change with large carnivores in Wyoming is real 
similar to what these gentlemen have talked about here with 
other predators. Certainly, climate change affects not only the 
vegetation and what happens with the vegetative components of 
the landscape, but it also affects what happens with prey base 
on the landscape. So when there are changes in vegetation or 
changes in prey base, that obviously changes how those large 
carnivores or predators react to that.
    For example, grizzly bears, or bears in general being 
omnivores, can eat a variety of foods on the landscape. 
However, the foods that they typically may eat that are at a 
high elevation, if climate change were to cause an issue with 
those particular foods to be developed, those bears would 
typically change location and change food sources that may put 
them in a position to be in more close contact with humans.
    So certainly something for us to be aware of, and to track 
what the effects of climate change are. That will need to be 
considered in management of all wildlife species in Wyoming.
    Senator Carper. All right, thank you.
    If I could, Mr. Chairman, maybe one more quick point.
    This would be for you, Mr. Hovinga.
    I take it back; this would be for Dr. Whitney.
    Technology is often seen as a cure-all for complex 
conservation challenges. However, as I mentioned earlier, 
technology is just one tool in the toolbox. Thinking 
specifically about addressing human-predator conflicts, are 
there additional non-technology options we need to add to that 
toolbox?
    Mr. Whitney. Yes. Thank you, Senator Carper, for the 
question. I think there are definitely tools besides 
technologies that need to be incorporated here. A big one is 
public education, and outreach just informing the general 
public about the presence of predators, what they may be doing 
in the area. I think Mr. Hovinga mentioned that in his 
testimony on grizzlies.
    Just hearing some of the stuff about grizzlies, you look at 
the contradiction. If someone saw a grizzly bear feeding in 
Yellowstone, you would stay away from that area. With sharks, 
we take the places where they are feeding, and we swim through 
them in board shorts and bikinis. So it is really a matter of 
learning to recognize the areas where sharks may be feeding, 
adjusting your behavior appropriately, and then taking the 
things that we are learning about their behavior and their 
movements and communicating those to the public, so they can 
make informed decisions about their use of the ocean.
    Senator Carper. Great, thanks.
    Thank you all very, very much.
    Senator Barrasso. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    This issue is very relevant to Massachusetts; Dr. Whitney 
knows this for sure. Because we have seen the return of the 
great white sharks to Cape Cod. That might be an encouraging 
sign of a recovering ecosystem. But it brings new challenges 
for the coexistence of a healthy marine environment, and our 
residents, our tourists, and our bustling $7.4 billion blue 
economy in Massachusetts.
    In September of last year--I know Senator Carper referred 
to this--Arthur Medici was killed by a white shark in 
Wellfleet, the first shark fatality in Massachusetts since 
1936. I would like to take a moment to extend my deepest 
condolences to Mr. Medici's family.
    In the wake of that incident, and an additional shark 
attack in Truro, Cape Cod national seashore officials and Cape 
Cod towns are making every effort to ensure that Cape residents 
and the 4 million visitors that flock to the national seashore 
each year can safely enjoy our nationally acclaimed beaches. In 
order to safely co-exist with sharks, we must increase our 
scientific understanding of their movements and behavior near 
the coast.
    Dr. Whitney, thank you for joining us today. Does white 
shark behavioral and tracking research require sustained, 
secure research funding over several years?
    Mr. Whitney. Thank you for the question, Senator Markey. 
Yes, understanding the behavior and movements of any species, 
especially a large shark, is going to require sustained 
research. That is a project that has been ongoing now for about 
10 years with the Massachusetts Division of Marine Fisheries, 
as well as with the Atlantic White Shark Conservancy. It has 
been a combination of some public funding and also private 
fundraising that has kept that research going.
    Most of our work is funded by Federal grants that normally 
have a 1-year timeline, or maybe 2 at the most. As you can 
imagine, it can be very difficult to get answers about the long 
term movements of species that may live for over 70 years, and 
their movements cover entire ocean basins. So to just go out 
and study those over a 12-month grant period will not give you 
a lot of information.
    Senator Markey. You testified that in addition to 
scientific research, public outreach is the most effective way 
to reduce shark-human conflict. Your shark tagging data is 
publicly available, and the Atlantic White Shark Conservancy's 
Sharktivity app combines awareness efforts with citizen 
science.
    Dr. Whitney, in addition to informal interactions by way of 
apps and Web sites, is more formal and structured communication 
needed to train Cape communities on shark safety and incident 
response?
    Mr. Whitney. I would say absolutely. Any form of educating 
the community is a positive thing, and more formalized 
education would be helpful, not just in helping people 
understand the biology of the animals themselves, but also the 
best ways to handle--in the event of an attack or a bite on a 
human, how to actually take the appropriate action to save 
lives.
    Most of these bites on humans are not predatory bites. 
White sharks are capable of eating seals, which are far more 
formidable in the water than humans. So the fact that most 
humans that are bitten by white sharks are released rather 
quickly and actually make it to the beach is a sign that the 
sharks are not intentionally trying to feed on humans. But of 
course, even a tentative bite from a white shark can be deadly.
    So the most important thing is to make sure that people who 
are bitten get the medical attention they need as fast as 
possible to prevent those fatalities.
    Senator Markey. Thank you. I couldn't agree more. Cape Cod 
National Seashore is currently coordinating efforts to educate 
and inform visitors and residents of shark safety and train 
first responders.
    Historically, Cape Cod Seashore Advisory Commission has 
provided a structured, defined format for communication and 
education and citizen input from outer Cape communities that 
are most at risk of white shark encounters. Unfortunately, the 
advisory commission's authorization expired on September 26th, 
2018, only a few weeks after the fatal shark incident in 
Wellfleet.
    That is why I have introduced legislation to reauthorize 
this citizen commission through 2029, restoring this critical 
forum for citizen input, and outreach sorely needed to keep our 
Cape communities safe. I hope that with the support of my 
colleagues here in the Environment and Public Works Committee 
and the Energy and Natural Resources Committee, that we can 
find a way to reauthorize that legislation.
    Do you think that would be an important thing to do, 
Doctor?
    Mr. Whitney. I am absolutely in favor of more formal 
education for Cape communities, absolutely.
    Senator Markey. Much appreciated.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Before heading back to Senator Braun, I do have some 
additional questions.
    Just wanted to give you an opportunity, Mr. Galante, to 
talk about a show you are going to be hosting during Shark Week 
on Extinct or Alive on the Animal Planet about your recent 
travels. Perhaps you could share a little bit about that.
    Mr. Galante. Yes, certainly. What I do as far as a career 
is, I travel around the world, primarily working with 
predators. I do that on television as an education platform, 
like Mr. Markey spoke about. This year, during Shark Week, we 
go looking for what is arguably the rarest shark on earth, the 
Pondicherry shark, a species not seen since the 1970s.
    We travel literally to the ends of the earth in search of 
it, through the Maldives and into very remote Sri Lanka, where 
we are faced with numerous predators, leopards and tiger 
sharks, things both terrestrial and aquatic. Not only is it a 
great adventure, but we have a fantastic scientific discovery 
that comes out with the episode. It is both worlds.
    Senator Barrasso. It is an hour show?
    Mr. Galante. It is.
    Senator Barrasso. It is an hour, so people can tune in if 
they want to see exactly what you find.
    Mr. Galante. That is correct. It will be on this Wednesday, 
yes, this Wednesday at 8 p.m. on Shark Week.
    Senator Barrasso. Thanks.
    Senator Braun.
    Senator Braun. Quick question, and Brad, I think I have to 
aim this at you again. Bobcats would be the current issue in 
Indiana, because there has been such great restoration. Our 
Department of Natural Resources has done an excellent job. Of 
course, that impacts turkey populations; they are predators of 
fawns. So it is starting to disrupt--again, it is not a human-
predator interaction as much as most of the people that pay for 
hunting licenses in Indiana are maybe not interested in feeding 
the bobcats, so to speak.
    So in, again, an area that is as compressed as ours is, do 
you think we will need a bobcat season, either trapping and/or 
hunting, eventually, to maintain their populations at a healthy 
level that doesn't beat back the prey to where it would impact 
hunters who are more interested in turkey hunting and rabbit 
hunting and squirrel hunting? Even though they don't mind 
bobcats around, other than if the prey is gone because there 
are too many.
    What do you think we need to do there eventually?
    Mr. Hovinga. Thank you, Senator Braun. In Wyoming and in 
the West, bobcat management revolves heavily around those 
cyclic sorts of components of the prey base for bobcats. 
Bobcats typically, in Wyoming and the western States, rely on 
small mammals as prey. Bobcat populations tend to fluctuate 
with upticks and population declines in those small mammal 
populations.
    We don't see effects from specifically bobcats on animals 
like mule deer. We may see some in the eastern part of the 
State with turkey, however, I am just not that familiar with 
that. We could certainly find that information for you in 
Wyoming. I am on the far western side of Wyoming, and we don't 
have any turkeys where we are.
    But I suspect they would, they would prey on turkeys, given 
the opportunity. At some point, you may likely be able to 
support recreational trapping or hunting of bobcats, based on 
those populations, and establish and how your prey population 
relates to the bobcat population. That will just be a time will 
tell, as bobcats are able to establish, and if your agency can 
document any effects on those prey base populations.
    Senator Braun. Coyotes would be the parallel to bobcats. 
Mountain lions, like I say, I think are just coming into the 
area. Coyotes almost had, I think, unlimited hunting and 
trapping and still are growing in number. So it is different in 
a State that has less geography.
    Mr. Hovinga. Correct, Senator Braun. In Wyoming, we do see 
some of those impacts from coyote populations. We have made 
some moves, through management, to address some of the harvest 
of coyotes in an area that are popular for fawning and calving 
areas for big game animals, in an effort to try to reduce some 
of those impacts to the deer population. But coyotes do have an 
impact on deer populations from time to time, specifically when 
deer populations are low.
    Senator Braun. Thank you.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I really 
appreciate our witnesses, what they do every day. I came in 
close encounter yesterday with a deer in Baltimore City. Pretty 
close to downtown Baltimore City. So we recognize we have 
challenges today, make no mistake about it.
    I want to start with habitat first, if I might. One of the 
ways to deal with this issue is to do a better job in 
protecting the habitat of wildlife. This Committee has a pretty 
good record here. The last Congress, we reported out of our 
Committee three bills that I sponsored with Republicans: The 
National Fish and Wildlife legislation that was filed with 
Senator Crapo, the National Fish and Wildlife Foundation 
reauthorization that was with Senator Cassidy. That, by the 
way, is where the Genius Prizes are handled. And the U.S. Fish 
and Wildlife Service Compensation Act, so that damages that are 
caused, they can recover the funds, recover for the damages, 
put it into the trust funds and use it to protect and repair 
the habitat that has been damaged. That is with Senator 
Gardner.
    I mention that because all three of those bills have been 
reported out by this Committee, but were held up last year 
because we couldn't find a vehicle to get it to the finish 
line. So they pulled out of the LANDS Bill. I would urge the 
leadership of this Committee to find ways that we can get those 
bills moving. I do think habitat protection is an area that we 
can all work on that can have a major impact on dealing with 
the confrontation between wildlife and humans.
    I want to deal with also the realities of climate, which is 
affecting the realities that the growth of population, the 
changing in weather patterns have all brought about more 
conflict between humans and wildlife. I just think this needs 
to be on our radar screen as we deal with mitigation issues on 
this conflict.
    It is interesting, when you look at the greatest threats, 
it is insects. We have programs to deal with it. But if you are 
looking at what is the greatest risk to life, it is insects. 
And we need to deal with that. Climate change is affecting the 
vulnerability in regard to insects and human health.
    So I hope as we go through this that we look at a 
comprehensive way to deal with this very important issue. I 
agree with the Chairman; this is a very important issue, and we 
need to act on it. But I would urge us to act on it in a way 
that is mindful of habitat, mindful of the realities of 
population growth, mindful of the changes in weather patterns, 
and that we look at a way that takes all that into 
consideration. And where the greatest risks are to human life 
and human safety, and not necessarily the ones that make the 
headlines in our paper, because of the very rare encounter 
between a bear and a human, which happens too often, or a shark 
and a human, which happens too often. But it is a rare episode, 
as compared to some of the others. I don't know how many people 
have lost their cars or their lives to deer. My guess is it is 
quite substantial.
    So if anyone wants to comment on that, fine. I just wanted 
to make those observations. I would be glad to hear from any 
one of you in an extra 2 minutes of presentation before the 
Committee.
    Mr. Galante. You are absolutely right, Senator, and I think 
a big part of that is, as we have briefly addressed, just 
encroachment issues, building highways through areas that have 
high deer populations, and things of that nature. What you end 
up seeing is these ecosystems are in a state of flux, meaning 
that they are not stable with regard to their predator-prey 
base. Once they are stabilized, you will have less encounters 
such as deer on freeways and things like that.
    Then of course, there are preventive methods, like what 
they are doing in Florida, where they are building wildlife 
corridors under the freeways and over the freeways, to prevent 
such encounters. With regard to insects and climate change and 
things of that nature, that is a very large topic that would 
take a long time to figure out any kind of a permanent 
solution. But the ultimate solution would be conservation. It 
is understanding the ecosystems and understanding how to keep 
them within balance, and once they are balanced, how that 
affects all of the human populace that surrounds them.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, and I wanted to thank you 
again for your leadership on this, Senator Cardin, 
specifically. I know we had a hearing a week or two ago on our 
upcoming highway bill. We had the head of the Wyoming 
Department of Transportation--we talked specifically about 
these interactions with deer and the damage and the loss of 
life there. That is why I think as part of our markup next week 
on the highway bill we actually have some things included in 
the bill that have to do with that. So you will be happy to see 
that coming.
    I want to just ask a couple of other questions. I know we 
are in the middle of a vote right now, so people are coming and 
going.
    Mr. Galante, to what extent can predator senses be impacted 
or targeted by innovators, things like smell, sight, hearing, 
touch, taste? You commented a little bit on how that would 
work, things we can do to deter unwanted interactions with 
humans.
    Mr. Galante. Yes, hugely. Understanding the ecology of a 
species and its behavior is the best way to come up with non-
lethal deterrents. What I mean by that is, as Dr. Whitney can 
attest to, sharks have a specialized EMR receptive organ named 
the Ampullae of Lorenzini. If you target that, by putting out 
electrical currents, you can create fantastic shark deterrents.
    The same thing can be said for terrestrial animals, whether 
you are talking about a canine with a heightened sense of 
smell, or you are talking about animals with a heightened sense 
of hearing or sight. It is targeting these specific species 
based on what instincts and what they use as predators, which 
is most key to them, and targeting that specific sensory organ 
and deterring them that way, which is a fantastic non-lethal 
way to mitigate human-predator conflict.
    Senator Barrasso. Senator Carper, I think you had a 
unanimous consent request.
    Senator Carper. I do. Mr. Chairman, I ask unanimous consent 
to enter into the record written testimony and letters from 
stakeholders as well as other supplemental materials.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Mr. Hovinga, since the goal of the Genius 
Prize we are considering is to protect both predators and 
humans, regarding predators, the key to protecting their lives 
involves preventing conflicts with humans in the first place. 
Can you explain why, from your years and history and knowledge, 
after a conflict with humans occurs, it may be necessary to 
euthanize some of these predators?
    Mr. Hovinga. Certainly, Mr. Chairman. That is an 
unfortunate reality sometimes with wildlife management and 
wildlife behavior, that we have to realize. With a lot of 
wildlife, bears specifically and other large carnivores, those 
behaviors that end up becoming a part of an animal's everyday 
behavior, that becomes dangerous toward humans, those are 
learned behaviors. Those are typically learned through 
successes over time. It usually revolves around those successes 
in obtaining food.
    They tend to learn that behavior over a long period of 
time. It is perpetuated by success. Just to give you an example 
of the situation I have dealt with before, this specific one is 
a black bear, where a black bear learned that if you approach 
people once in a while, they'll drop their backpack and run 
away, and you can go over and receive a food reward out of that 
backpack.
    Over time, that particular bear learned to be more 
aggressive, and the more aggressive that bear was, the higher 
the probability of that person dropping a backpack and running 
away. Fortunately, we were able to intervene in that situation, 
prior to that becoming dangerous and actually somebody becoming 
injured.
    So those learned behaviors are very, very difficult for 
animals to unlearn. They typically don't unlearn them. It is 
irresponsible for us as a wildlife management agency to allow 
animals to remain on the landscape that engage in behavior that 
is dangerous toward people. Unfortunately, sometimes those 
animals need to be removed from the population.
    So the populations are nearly always doing well enough that 
those removals are not significant in the scheme of the 
population management. But certainly, a requirement to keep 
people safe.
    Senator Barrasso. And a final question, to all three of 
you, are there technologies currently not available that you 
envision coming down the line, having the potential to be 
developed into usable technology to reduce these conflicts? We 
will start with Dr. Whitney.
    Mr. Whitney. Thank you for the question, Chairman Barrasso. 
One of the focuses of my research is utilizing new technologies 
to learn about shark fine scale behavior. So we use--the tags 
in front of me here use accelerometers, the same technology 
that is found in a Fitbit or in your smartphone. So we are not 
just tracking where the sharks go anymore; we are actually 
tracking their fine scale movements. We can count how many 
tailbeats they make during a day or every change in pitch and 
posture. So we can actually measure activities.
    Then we are also starting to use the same technology along 
with video cameras, so we can get an idea of the context of 
what is happening, and what other sharks or prey items are 
around while they are engaging in these behaviors.
    So technologies like that are constantly developing and 
expanding our ability to understand what is happening with the 
predators. There is also tracking technology now where you can 
actually follow a shark with an AUV, an underwater unmanned 
vehicle. You can follow the shark around and occasionally take 
video clips of what the shark is doing, or record water samples 
so you know what is happening around the shark.
    So things like that are the most exciting in our line of 
research.
    Senator Barrasso. They do that with submarines, we find the 
enemy submarines, you follow them around that way, too. 
Fascinating.
    Mr. Whitney. Yes.
    Senator Barrasso. Mr. Galante.
    Mr. Galante. As Dr. Whitney stated, using Fitbits and shark 
tags, and as Mr. Hovinga stated, using drones, in my opinion, 
the best use of technology is actually repurposing existing 
technology, and adapting it to be available for wildlife use, 
whether that is taking technologies that exist in the tech 
realm, in the hunting realm, in the fishing realm, in the 
military realm, and applying that toward wildlife science.
    Because what we see is with very small tweaks to existing 
technology, we are able to apply that tech to our fields, our 
respective fields of wildlife work. It is much cheaper, more 
effective and certainly much quicker than trying to develop new 
technology for these purposes.
    Senator Barrasso. Mr. Hovinga.
    Mr. Hovinga. Thank you, Mr. Chairman. I certainly agree 
with Mr. Galante, as far as those new technologies, and 
repurposing. One technology that we have used in the past for 
aversive conditioning on bears and other habituated wildlife is 
air horns. But a technology that is out there that would be 
really helpful is the use of some sort of an acoustic sound 
technology or sound cannon. Those are directional devices that 
can project sound a very long distance. You might imagine, 
using an air horn or something, if you are outside, it doesn't 
take very much distance for that sound to kind of fade.
    But those technologies out there that have been used by law 
enforcement for crowd control purposes for decades, the 
military certainly has acoustic sound technologies that they 
have to use. And some of that technology could certainly be 
used or modified or made portable enough that it could be used 
for an aversive conditioning technique for wildlife. Maybe 
something portable enough that is directional, it could be even 
a frequency that, instead of just being loud, is something that 
has a very aversive sort of effect on a bear, and make that 
technology even more effective.
    What if that technology became portable enough that people 
could carry that, similar to how they do bear spray? Those 
technologies would be real advantageous.
    Senator Barrasso. I want to thank all of you for being 
here. This is fascinating. We had a lot of opportunity to ask 
questions. We thank you for your testimony.
    The hearing record is going to be open for 2 weeks, and 
some of the members who haven't been able to be here and wanted 
to, but had conflicts, may actually send written questions. We 
hope that you quickly will respond to those.
    So with that, thank you again for sharing your time and 
your expertise. The hearing is adjourned.
    [Whereupon, at 11:17 a.m., the Committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
